2311 Douglas Street
Omaha, Nebraska 68102-1214
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

tP'OCKLE

E-Mail Address:
contact@cocklelegalbri efs. com

Legal Briefs
Est. 1923

Web Site
www.cocklelegalbriefs.com
NO.
PATRICK KENT LINDSEY JONES,
Petitioner,
v.
ALLEN JONES,
Respondent.
AFFIDAVIT OF SERVICE

l, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of August, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI and S. CT. RULE 12.6
LETTER in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were*'
plainly addressed to the following:
SEE ATTACHED

To be filed for:
Patrick Kent Lindsey
Jones, pro per
5773 Woodway Drive #236
Houston, Texas 77057
Telephone: (832) 265-1377
In proper person

RECEIVED
AUG 19 2019
OFFICE OF THE CLERK
ruMhbie COURT. UE.

Subscribed and sworn to before me this 14th day of August, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38425

\

R. Lee Eddy III
433 Metairie Rd.
Metairie, LA 70005
504-835-0378
rleiii@cox.net
Counsel for Respondent Alan Kent Jones

